         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program - 2012




OAS-L-13-01                        November 2012
                                 Department of Energy
                                    Washington, DC 20585

                                       November 7, 2012


MEMORANDUM FOR THE EXECUTIVE DIRECTOR, FEDERAL ENERGY
               REGULATORY COMMISSION


FROM:                    Daniel M. Weeber
                         Assistant Inspector General
                            for Audits and Administration
                         Office of Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Federal Energy
                         Regulatory Commission's Unclassified Cyber Security Program - 2012"

BACKGROUND

The Federal Energy Regulatory Commission (Commission) is an independent agency within the
Department of Energy responsible for, among other things, regulating interstate transmission of
the Nation's electricity, natural gas and oil. In addition, the Commission licenses and inspects
private, municipal and state hydroelectric projects. To achieve its mission, the Commission relies
on a wide range of information technology (IT) resources to help ensure that rates and terms and
conditions for the wholesale of electric energy and natural gas are just and reasonable, and
promote the development of a safe, reliable and efficient energy infrastructure. As highlighted by
recent cyber attacks on Federal entities, the information security threat landscape continues to
change, and vulnerable IT resources continue to be exploited. To help protect against continuing
cyber security threats, the Commission estimated that it would expend approximately $5.3 million
during Fiscal Year (FY) 2012 to secure its IT assets, a 39 percent increase from FY 2011.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for Federal agencies regarding the management and oversight of information security risks and
to ensure that IT resources were adequately protected. As directed by FISMA, the Office of
Inspector General conducted an independent evaluation of the Commission's unclassified cyber
security program to determine whether it adequately protected data and information systems.
This report presents the results of our evaluation for FY 2012.

CONCLUSIONS AND OBSERVATIONS

The Commission had taken action to further improve its cyber security posture and mitigate risks
associated with the weaknesses identified during our FY 2011 evaluation. While these actions
are noteworthy, our current evaluation disclosed that additional opportunities existed to better
protect its information systems and data. Specifically, we continued to identify weaknesses
related to the Commission's timely remediation of software vulnerabilities.

Due to security considerations, information on specific vulnerabilities has been omitted from this
report. However, management was provided detailed information regarding identified
vulnerabilities and, in certain instances, had initiated corrective action.
                                         Positive Aspects

We identified a number of positive measures taken by the Commission related to enhancing its
unclassified cyber security program. For instance, we noted that the Commission continued to
make improvements in implementing the existing Vulnerability Management Program (VMP).
Specifically, we found that the Commission:

   •   Initiated a project to upgrade the software tool used to manage patch and software
       deployment. Officials stated that completion of this project is expected in late 2012 and
       should reduce the need to manually update systems; and,

   •   Had identified and continued to monitor vulnerabilities through its VMP and Plan of
       Action and Milestones (POA&M) processes.

                                        Patch Management

Although significant progress had been made to secure the Commission's network devices,
servers and workstations, our testing identified additional opportunities for it to ensure that all
devices were patched in a timely manner. Specifically, of the 337 workstations tested, 33
contained vulnerable productivity applications, and 105 workstations were using software
utilities that had not been patched. All of the vulnerabilities were considered to be high risk by
the vendor and were more than 90 days old, including some affecting workstations that were
more than 2 years old. Affected systems included workstations utilized by financial application
users and system administrators with privileged levels of access to financial systems and general
support systems. As noted by the National Institute of Standards and Technology, proactively
identifying and remediating system vulnerabilities can reduce or eliminate the potential for
exploitation and involves considerably less time than responding to an exploit. Notably, our
scans of network devices and servers did not identify any significant vulnerabilities.

                                      Policy Implementation

As in past years, the problems we identified with the Commission's vulnerability management
process were due, in part, to less than fully effective implementation of policies and procedures.
In particular, although action had been taken to strengthen the Commission's VMP and POA&M
processes, our review of weaknesses in the POA&M disclosed that 35 high- and medium-risk
vulnerabilities had not been remediated based on the VMP-defined remediation timeframes. For
example, the VMP required that high-risk vulnerabilities be remediated within 30 days.
However, our testing found that each of the identified high-risk vulnerabilities had significantly
exceeded the prescribed timeframe for remediation.

In addition, Commission officials informed us that they did not follow their existing VMP
policies due to budget and resource constraints. As such, the identified high-risk vulnerabilities
had not been remediated in a timely manner. Officials stated, and we agree, that successful
completion of the Commission's ongoing project to update its patch management tools should
further enhance its VMP.



                                                 2
                                   Risks to Systems and Information

Although the Commission continued to make progress in improving its cyber security posture,
additional actions are needed to further reduce the risk to the agency's information systems and
data. In particular, workstations running vulnerable applications and utilities were at a
heightened risk for malicious attacks that could result in the compromise of those systems and/or
the information contained within them. For example, an attacker could exploit the vulnerabilities
to gain unauthorized access to systems, applications and sensitive data, including financial
systems and data, which could disrupt normal business operations or have negative impacts on
system and data reliability.

SUGGESTED ACTION

To correct the weaknesses identified in this report and improve the effectiveness of the
Commission's unclassified cyber security program, we suggest that the Executive Director,
Federal Energy Regulatory Commission, take the following action:

      •    Update and implement existing vulnerability and patch management procedures as
           needed to ensure that security vulnerabilities are remediated and verified in a timely
           manner.

We appreciate the cooperation of the Commission and its ongoing efforts to ensure that its
unclassified cyber security program is managed efficiently and effectively. Because no
recommendations are being made in this report, a formal response is not required.

Attachment

cc:       Deputy Secretary
          Associate Deputy Secretary
          Chief of Staff




                                                    3
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Federal Energy Regulatory Commission's (Commission) unclassified
cyber security program adequately protected data and information systems.

SCOPE

The evaluation was performed between May 2012 and November 2012, at the Commission's
Headquarters in Washington, DC. Specifically, KPMG, LLP (KPMG), the Office of Inspector
General's (OIG) contract auditor, performed an assessment of the Commission's unclassified
cyber security program. The evaluation included a review of general and application controls in
areas such as security management, access controls, configuration management, segregation of
duties and contingency planning.

METHODOLOGY

To accomplish our objective, we:

   •   Reviewed Federal laws and regulations related to controls over information technology
       security such as the Federal Information Security Management Act of 2002, Office of
       Management and Budget Memoranda and National Institute of Standards and
       Technology standards and guidance;

   •   Evaluated the Commission in conjunction with its annual audit of the financial
       statements, utilizing work performed by KPMG. OIG and KPMG work included analysis
       and testing of general and application controls for the network and systems and review of
       the network configuration;

   •   Reviewed the overall unclassified cyber security program management, including the
       Commission's policies, procedures and practices;

   •   Held discussions with Commission officials and reviewed relevant documentation; and,

   •   Reviewed prior reports issued by the OIG and the Government Accountability Office.

We conducted this evaluation in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the effort to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and the Commission's implementation of the GPRA Modernization Act of 2010
and determined that it had not established performance measures for its unclassified cyber
security program. Because our evaluation was limited, it would not have necessarily

                                               4
                                                                      Attachment 1 (continued)

disclosed all internal control deficiencies that may have existed at the time of our evaluation.
We relied on computer-processed data to satisfy our objective. In particular, computer assisted
audit tools were used to perform probes of various networks and drives. We validated the results
of the scans by confirming the weaknesses disclosed with responsible on-site personnel and
performed other procedures to satisfy ourselves as to the reliability and competence of the data
produced by the tests.

Management waived an exit conference.




                                               5
                                                                                     Attachment 2


                                       PRIOR REPORTS

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2011, (OAS-M-12-01, November 2011). The Federal Energy
    Regulatory Commission (Commission) had taken actions to improve its cyber security
    posture and mitigate risks associated with certain issues identified during our Fiscal Year
    (FY) 2010 evaluation. While these measures were noteworthy, our evaluation disclosed that
    additional action was needed to further protect information systems and data. Specifically,
    we continued to identify weaknesses related to the Commission's timely remediation of
    software vulnerabilities. The problems we identified with the Commission's vulnerability
    management program were due, in part, to less than fully effective implementation of
    policies and procedures. Although the Commission continued to make progress in improving
    its cyber security posture, additional actions were needed to further reduce the risk to the
    agency's information systems and data. Management concurred with the report's
    recommendations and commented that it had initiated actions to address weaknesses
    identified during our evaluation.

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2010, (OAS-M-11-01, October 2010). The Commission had taken
    actions to significantly improve its cyber security posture and mitigate risks associated with
    each of the four weaknesses we identified during our FY 2009 evaluation. However,
    additional action was needed to improve protection of information systems and data.
    Specifically, we found that security patches needed to resolve known vulnerabilities
    discovered during regularly scheduled scans were not applied to all workstations in a timely
    manner. In addition, even though officials had established an automated mechanism for
    tracking all known vulnerabilities, only 10 percent of the identified high-risk vulnerabilities
    were actually being tracked. The problems we identified with the Commission's unclassified
    cyber security program were due, in part, to the less than fully effective implementation of
    policies and procedures. As such, the risk to the agency's information systems and data
    remained higher than necessary. Management concurred with the report's recommendations
    and commented that it had initiated actions to address weaknesses identified during our
    evaluation.

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2009, (DOE/IG-0830, October 2009). The Commission had taken steps
    to improve its unclassified cyber security program; however, additional actions were
    necessary to help ensure the networks, systems and data were adequately protected against
    increasingly sophisticated cyber security attacks. These problems occurred, at least in part,
    because the Commission had not developed policies and procedures to address all Federal
    requirements pertaining to information security. In addition, officials had not always
    effectively implemented existing policy and/or corrected previously observed weaknesses.
    The Commission's Plan of Action and Milestones process for addressing cyber security
    weaknesses did not include all information necessary to ensure effectiveness. Management
    concurred with the report's recommendations and commented that it had initiated or already
    completed actions to address weaknesses identified during our evaluation.

                                                 6
                                                                    IG Report No. OAS-L-13-01


                             CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

   If you wish to discuss this report or your comments with a staff member of the Office of
   Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
